Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




       The Ryan White CARE Act
       Title I and Title II Grantees’
        Monitoring of Subgrantees




                      INSPECTOR GENERAL

                        MARCH 2004
                         OEI-02-01-00641
                OFFICE OF INSPECTOR GENERAL

                                 http://www.oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                            EXECUTIVE SUMMARY


OBJECTIVE

          To assess the Ryan White CARE Act Title I and Title II grantees’ monitoring of subgrantees.


BACKGROUND

          The Senate Finance Committee asked the Office of Inspector General (OIG) to review the
          Health Resources and Services Administration’s (HRSA) oversight of Ryan White
          Comprehensive AIDS Resources Emergency (CARE) Act Title I and Title II grantees and
          grantees’ oversight of their subgrantees. Hereinafter these grantees are referred to as Title I
          and Title II grantees. As part of this request, the Committee asked OIG to also initiate audits of
          select grantees and subgrantees.

          The CARE Act provides funding to develop, organize, coordinate, and operate effective and
          cost-efficient health care and support services to medically underserved individuals and families
          affected by HIV/AIDS. Title I and Title II are the largest programs and are the focus of this
          inspection. Title I provides emergency relief grants to eligible metropolitan areas for
          community-based HIV-related services, and Title II provides grants to States, the District of
          Columbia, and territories to improve the quality, availability, and organization of health care and
          support services. These services are provided directly through health department programs
          and through contracts with for-profit and non-profit subgrantees who apply for and receive
          funds directly from the grantees.

          To assess Title I and Title II grantees’ monitoring of subgrantees, we reviewed documents for
          fiscal year 2000 for 5 subgrantees from 20 Title I and Title II grantees, for a total of 100
          subgrantees. We also interviewed the 17 project officers responsible for these grantees, HRSA
          program officials, and the 20 grantees that represent 38 percent of all Title I funds and 41
          percent of all Title II funds. This report is a companion report to Monitoring of Ryan White
          CARE Act Title I and Title II Grantees, OEI-02-01-00640.


FINDINGS

Grantees’ monitoring of subgrantees is limited

          Fifteen of the 20 selected grantees did not have comprehensive documentation to demonstrate
          that they are monitoring their subgrantees systematically. These grantees did



Grantee Monitoring of Subgrantees                      i                                OEI-02-01-00641
          not have each of the three key documents (a contract or formal agreement, a program report,
          and a fiscal report) needed to monitor for all 5 of their subgrantees in fiscal year (FY) 2000.
          Further, not all grantees had each of these documents for all five subgrantees. Twelve grantees
          had a program report, 9 grantees had a fiscal report, 13 grantees had a contract or formal
          agreement, and 4 grantees had a site visit report for all 5 of their subgrantees.

Nevertheless, grantees are aware of some subgrantee problems

          Despite limited monitoring, grantees have identified some problems that their subgrantees are
          facing. Based on our document review, the 20 selected grantees had evidence of issues for 78
          of the 100 subgrantees. Ten of these subgrantees had audits that included findings. A total of
          19 subgrantees had corrective action plans that address a specific issue. Despite identifying
          subgrantee issues, grantees emphasize that they do not have serious concerns with any of their
          current subgrantees.

HRSA does not always require grantees to report how they monitor subgrantees,
and HRSA does not systematically monitor grantee oversight of subgrantees

          HRSA requires grantees to describe how they monitor their subgrantees in the grant
          application. However, HRSA does not require grantees to provide monitoring information in all
          instances. For example, HRSA does not require monitoring information for Title II grantees if
          the information has not changed since the last application. Further, HRSA does not appear to
          use the information that Title I or Title II grantees provide in order to monitor grantees’
          oversight of subgrantees. Further, one HRSA official notes that they do not see monitoring
          grantees’ oversight of their subgrantees as part of HRSA’s responsibility, and that relying on the
          signed assurances from grantees is adequate.


RECOMMENDATIONS

          The findings are based on documents from 100 subgrantees from 20 grantees. These 20
          grantees receive 38 percent of all Title I funds and 41 percent of all Title II funds. The
          inconsistencies in monitoring that we found with the grantees reviewed suggest that Title I and
          Title II grantees’ monitoring of subgrantees needs to be strengthened. We are aware that since
          this inspection was conducted, HRSA has consolidated its grants management offices,
          relocated most Title II monitoring responsibilities from regional offices to headquarters, and
          redefined the Office of Field Operations as the Office of Performance Review. These changes
          may better position the agency to address the following recommendations. Specifically, we
          recommend that HRSA:

          •	        Set standards for grantees’ monitoring of subgrantees that, at a minimum, require a
                    contract or formal agreement, a program report, and a fiscal report, and some
                    consideration of regular site visits


Grantee Monitoring of Subgrantees                      ii                              OEI-02-01-00641
          •	        Require grantees to report how they monitor their subgrantees in accordance with these
                    standards as part of every application

          •	        Increase efforts to monitor grantees’ oversight of subgrantees, including using
                    information grantees report to HRSA regarding subgrantee activities

Agency Comments

          We received comments on our draft report from HRSA. The full text of these comments can
          be found in Attachment D. HRSA concurs with all but one of our recommendations, and adds
          that significant administrative changes have occurred since this inspection was conducted.
          These changes may better position the agency to address the grantee monitoring activities
          discussed in this report.

          HRSA did not fully concur with the original OIG recommendation as it appeared in our draft
          report and required grantees to report how they monitor their subgrantees as a part of every
          annual application. In its comments to the Inspector General, HRSA reports that starting with
          the fiscal year 2004 grant guidance, they will require Title II grantees to submit a
          comprehensive application every other year instead of annually. As such, we have reworded
          this recommendation to reflect this new policy, and now recommend that HRSA require
          grantees to report subgrantee monitoring information in every application.




Grantee Monitoring of Subgrantees                       iii                              OEI-02-01-00641
                              TABLE OF CONTENTS

          EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


          INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


          FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


                    Grantees’ monitoring of subgrantees is limited . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


                    Grantees are aware of some subgrantee problems . . . . . . . . . . . . . . . . . . . . . . . . . . 10


                    HRSA does not always require grantees to report how they monitor

                    subgrantees, and HRSA does not systematically monitor grantee oversight of

                    subgrantees . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


          RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          APPENDICES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


                    Appendix A: HRSA/HAB Organizational Structure . . . . . . . . . . . . . . . . . . . . . . . . 13


                    Appendix B: OIG Grants Oversight Framework . . . . . . . . . . . . . . . . . . . . . . . . . . 14


                    Appendix C: Grantee Monitoring Documents
                    Provided for Sampled Grantees . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


                    Appendix D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


          ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24





Grantee Monitoring of Subgrantees                                   iv                                           OEI-02-01-00641
                                    INTRODUCTION


OBJECTIVE

          To assess the Ryan White CARE Act Title I and Title II grantees’ monitoring of subgrantees.


BACKGROUND

          In a letter dated August 2001, the Senate Finance Committee asked the Office of Inspector
          General (OIG) to review the Health Resources and Services Administration’s (HRSA’s)
          oversight of Ryan White Comprehensive AIDS Resources Emergency (CARE) Act grantees
          and grantees’ oversight of their subgrantees. News accounts have highlighted several instances
          of questionable spending by grantees and subgrantees that are now subject to Federal and
          State investigations. As a result, the Committee is concerned that HRSA does not appear to
          exert clear and consistent oversight over its CARE Act grantees, nor require, or otherwise
          monitor, grantees’ oversight of their subgrantees.

          As part of this request, the Committee asked OIG to also initiate audits of select grantees and
          subgrantees. The purpose of these audits is to evaluate grantees’ administration of Title I and
          Title II grant funds and their oversight of subgrantees, and to assess subgrantees’ fiscal
          capability and performance.

          The following report focuses on the Title I and Title II grantees’ monitoring of subgrantees. It is
          a companion report to Monitoring of Ryan White CARE Act Title I and Title II Grantees
          OEI-02-01-00640, which focuses on how HRSA monitors Title I and Title II grantees’
          programmatic performance. We organized these reports in this way, as opposed to by Title, to
          better respond to the Senate Finance Committee’s two-part request, and because the overall
          findings apply to both Title I and Title II.

The CARE Act

          The CARE Act (Pub. L. 101-381) was passed in 1990, and reauthorized in 1996
          (as Pub. L. 104-146) and in 2000 (as Pub. L. 106-345). The legislation provides funding to
          States and other public and nonprofit entities to develop, organize, coordinate, and operate
          effective and cost-efficient health care and support services to medically underserved
          individuals and families affected by HIV/AIDS. The CARE Act distributes resources to
          various entities under four Titles and Part F. Title I and Title II are the largest programs and are
          the focus of this inspection.




Grantee Monitoring of Subgrantees                      1                                OEI-02-01-00641
          Title I

          Title I provides emergency relief grants to eligible metropolitan areas disproportionately
          affected by the HIV/AIDS epidemic. The Title I grantee is the Mayor or chief elected official.
          This official typically designates administrative authority for the CARE Act to the city or county
          health department, which may also be called the grantee. The grantee designates a planning
          council that is responsible for prioritizing the allocation of funds and makes awards to
          subgrantees according to the planning council’s decisions. Subgrantees may include hospitals,
          community-based organizations, hospices, ambulatory care facilities, community health centers,
          migrant health centers, homeless health centers, and substance abuse treatment and mental
          health programs.

          Title I funding includes formula and supplemental components. Formula grants are awarded on
          the estimated number of people living with AIDS in the eligible metropolitan area over the most
          recent 10-year period. Supplemental grants are awarded competitively based on a
          demonstration of severe need and other criteria. In fiscal year (FY) 2001, 51 eligible
          metropolitan areas in 21 States, Puerto Rico, and the District of Columbia were awarded $604
          million in formula and supplemental funds.

          Title II

          Title II provides grants to States, the District of Columbia, and the territories to improve the
          quality, availability, and organization of health care and support services for individuals and
          families with HIV/AIDS. The grantee for Title II is the Governor, and the administrative agency
          is the State Department of Health, which may also be the grantee. States distribute Title II
          funds to subgrantees, which are typically public or non-profit providers and community-based
          organizations. The grantee distributes funds either directly or through consortia that are
          responsible for prioritizing Title II funds in their area. In FY 2001, the States, the District of
          Columbia, and the territories were awarded $845 million in Title II grants.

          A portion of each State’s Title II funds must be used to establish an AIDS Drug Assistance
          Program (ADAP) to provide medications to low-income individuals with HIV/AIDS and their
          families. In FY 2001, the ADAP portion of the Title II award totaled $571 million.

Federal Oversight

          The HIV/AIDS Bureau in HRSA is responsible for implementing Title I and Title II. Prior to
          December 2002, these programs were managed differently. The Bureau’s Division of Service
          Systems was responsible for monitoring and oversight of Title I grantees and ADAP. The
          Office of Field Operations, which included the 10 regional offices, was responsible for Title II
          grantees as well as other grants (see Figure 1 and Appendix A).




Grantee Monitoring of Subgrantees                     2                                OEI-02-01-00641
                                    Figure 1: Monitoring Responsibilities
                                       (Regional Responsibility Italicized)


                                                            CARE Act Program

            Responsibility                    Title I              Title II           Title II ADAP

            Program Monitoring          Division of          Office of Field       Division of Service
                                        Service Systems -    Operations -          Systems -
                                        Project Officer      Project Officer       Representative

            Fiscal Monitoring           Division of Service Systems - Grants Management Officer



          In January 2003, HRSA announced that the Bureau’s Division of Service Systems would be
          responsible for both Title I and Title II. The Office of Field Operations, which had
          responsibility for Title II grantees, became the Office of Performance Review, and now serves
          as the focal point for reviewing and enhancing performance of HRSA-supported programs.

Monitoring Requirements

          Federal regulations and guidelines describe grantees’ responsibilities for overseeing the activities
          of their subgrantees. The OMB Circular A-133 sets forth responsibilities for pass-through
          entities, including grantees. Recipients of Federal grants funds are required to: “Monitor the
          activities of subrecipients as necessary to ensure that Federal awards are used for authorized
          purposes in compliance with laws, regulations, and the provisions of contracts or grant
          agreements and that performance goals are achieved.”

          Program Monitoring. According to 45 CFR § 92.40, grantees must monitor grant and
          subgrant-supported activities to assure compliance with applicable Federal requirements and
          that performance goals are being achieved. Performance reports contain a comparison of
          actual accomplishments to the objectives established for the period, cost per unit, if helpful, and
          reasons for slippage if established goals are not met. Reports must also contain additional
          information including, when appropriate, analysis and explanation of cost overruns or high unit
          costs.

          Fiscal Monitoring. According to 45 CFR § 92.20, grantees and subgrantees must maintain
          records that adequately identify the source and application of funds provided for financially-
          assisted activities. These records must contain information pertaining to grant or subgrant
          awards and authorizations, obligations, unobligated balances, assets, liabilities, outlays or
          expenditures, and income.

          Federal regulations also require that accounting records be supported by such source
          documentation as cancelled checks, paid bills, payrolls, time and attendance records, and
          contract and subcontract award documents. Also, the awarding agency may review the




Grantee Monitoring of Subgrantees                       3                               OEI-02-01-00641
          adequacy of the financial management system of any applicant for financial assistance as part of
          a preaward review or at any time subsequent to the award.

          Awarding and Monitoring Subawards Under Federal Grants, a training manual used by
          Federal grants personnel, further suggests three documents that the grantee may use to monitor
          subgrantee progress: the contract (also called the subaward document), the progress report,
          and the financial report. Specifically, it states:

          •	        The subaward document forms a baseline for assessing subrecipient performance and
                    compliance (Chapter 5.1)
          •	        The program report is the primary means of communication between the subrecipient
                    and the pass-through entity program staff. The progress report’s main function is to
                    explain the subrecipient’s progress (or lack thereof) toward achieving the goals
                    established in the approved application (Chapter 6.3.1)
          •	        The financial report should always be read in conjunction with progress reports
                    covering the same period to ensure the two match up (Chapter 6.3.2)

          This manual also includes site visits as a mechanism that agencies can use to monitor
          subrecipients. Specifically, site visits determine compliance or noncompliance with the terms
          and conditions of the grant award, verify information received in reports, and provide an
          opportunity to counsel the subrecipient in ways to remedy deficiencies (Chapter 6.2).

          OIG Oversight Framework

          As part of its focus on grants oversight, OIG has developed an oversight framework that
          establishes monitoring fundamentals for Federal grants (see Appendix B). This framework is
          based on the Grants Administration Manual and Awarding and Monitoring Subawards
          Under Federal Grants. The framework focuses on four areas: (1) requirements developed
          by the operating division that address program and financial progress; (2) reports generated by
          the grantee that are collected by the operating division; (3) review and verification of report
          information; and (4) enforcement authority used by the operating division to address identified
          issues. We used this framework to assess HRSA’s oversight of the Title I and Title II grantees.


METHODOLOGY and ANALYSIS

          To assess Title I and Title II grantees’ monitoring of subgrantees, we compared how grantees
          are monitoring their subgrantees to the training manual guidelines, Federal requirements, and our
          oversight framework. We present our findings for Title I and Title II together, because grantees
          from both Titles are expected to monitor their subgrantees similarly, and because the general
          findings apply to both Titles. We highlight differences between Title I and Title II, when
          appropriate. Note that for the purposes of this report, we use the term subgrantees to refer to
          all sub-awardees of a grantee.




Grantee Monitoring of Subgrantees                     4                               OEI-02-01-00641
          We collected information about how Title I and Title II grantees monitor subgrantees from
          several data sources: (1) a review of documents of 100 subgrantees from 20 grantees, (2)
          interviews with these 20 grantees, (3) interviews with the 17 project officers who are
          responsible for these grantees, and (4) interviews with HRSA program officials.

Selection of Grantees

          This inspection is based on 10 Title I and 10 Title II grantees. We selected these grantees
          based on several factors. Specifically, we ranked each grantee according to funding level and
          grant longevity, and selected 5 grantees that were in the upper 10 and 5 in the lower 10 for
          each factor and from each Title. Further, we aimed to select at least one grantee from each
          area where HRSA has a regional office. We also included an eligible metropolitan area and its
          corresponding State for half of the grantees, and we made an effort to minimize our overlap
          with the grantees that were selected by the Office of Audit Services. We did not select the
          grantees based on their performance. In total, the 20 selected grantees represent 38 percent of
          Title I funds and 41 percent of Title II funds. They include the following:

                                   Title I                      Title II
                            Los Angeles, CA
                  California
                            Atlanta, GA
                      Georgia
                            Minneapolis, MN
                  Minnesota
                            Philadelphia, PA
                 Pennsylvania
                            New York, NY
                     New York
                            Kansas City, MO
                  Alabama
                            West Palm Beach, FL
              Massachusetts
                            Norfolk, VA
                      New Mexico
                            Seattle, WA
                      South Carolina
                            Las Vegas, NV
                    Utah

          To select the 100 subgrantees, we asked each grantee for a list of all of their subgrantees. We
          then selected 5 subgrantees from each grantee for a total of 100 subgrantees. When possible,
          we selected two subgrantees that had been identified by the grantee as having a concern or a
          corrective action plan in place. We also took into consideration that Title II grantees may rely
          on consortia to monitor subgrantees. In these cases, we selected two of the grantees’ consortia
          and selected a total of five subgrantees from them.

Document Review

          We reviewed key documents to assess grantees’ monitoring of subgrantees. To do this, we
          requested documentation for FY 2000 from each grantee or consortium for the 5 selected
          subgrantees. We specifically requested copies of any contracts or formal agreements, program
          reports, fiscal reports, site visit reports, audits, and any other




Grantee Monitoring of Subgrantees                    5                               OEI-02-01-00641
          documentation used to monitor subgrantees. We also asked for any existing corrective action
          plans. We reviewed these documents using a structured instrument and analyzed them using a
          statistical analysis software program (SAS).

Interviews

          We conducted interviews with the 20 selected Title I and Title II grantees. We asked each
          grantee about how they monitor their subgrantees, and how they identify and address
          subgrantee issues. We conducted interviews with consortia when the grantee relied on them to
          monitor subgrantees. These interviews were completed between March and May 2002.

          We also conducted interviews with the 17 project officers who were responsible for monitoring
          the 20 selected grantees. In total, at the time the inspection was conducted, there were 12 Title
          I project officers and 30 Title II project officers.1 Eight of these project officers that we
          interviewed were from Title I, and nine were from Title II. These project officers were
          responsible for monitoring a total of 38 of all 51 Title I grantees and 21 of all 54 Title II
          grantees. In our interviews, we asked project officers how they monitor their grantees and
          subgrantees, and how they identify and address any issues. We conducted these interviews in
          April 2002.

          Finally, we interviewed key program officials at the HIV/AIDS Bureau and at the former Office
          of Field Operations. These interviews provided mostly background information about Title I
          and Title II and how the programs are administered. We conducted these interviews in
          December 2001.

Standards

          We conducted this inspection in accordance with the Quality Standards for Inspections
          issued by the President’s Council on Integrity and Efficiency.




          1
              These numbers are based on the information provided by the HIV/AIDS Bureau as of November 2001.
Grantee Monitoring of Subgrantees                             6                                    OEI-02-01-00641
                                            FINDINGS


Grantees’ monitoring of subgrantees is limited

          We found that 15 of the 20 selected grantees did not have comprehensive documentation to
          demonstrate that they are monitoring their subgrantees systematically. We determined that
          three key documents, a contract or formal agreement, a program report, and a fiscal report
          would provide minimum monitoring information. These grantees did not have all three
          documents needed to monitor their five selected subgrantees, and two of these grantees did not
          have all three documents for any of their five subgrantees. Grantees did not have these 3
          documents for a total of 41 of the 100 subgrantees that we reviewed (see Appendix C).

          Program reports. Not all grantees had program reports for each of their subgrantees.
          Specifically, 2 of the 20 grantees did not have a program report for any of their 5 subgrantees
          that we reviewed (see Figure 2). Another six grantees did not have such documentation for
          between one and four of their subgrantees. In total, program reports were missing for 23 of the
          100 subgrantees. Program reports commonly included goals and objectives, client
          demographics, client and service utilization data, and program narratives. Without a program
          report, the grantee cannot monitor the extent to which subgrantees have met program goals and
          objectives, nor can the grantee detect problems early.

                           Figure 2: Grantees that Did Not Have Program Reports


                                                       Number of Subgrantees Missing Reports

                                                      Five     Four      Three       Two         One

            Number of grantees that did not
                                                       2         1          1         2            2
            have all program reports (n=20)
          Source: OEI Documentation Review, 2002


          Even though not all had program reports for their subgrantees, all 20 selected grantees report
          that they require their subgrantees or consortia to submit program reports at least quarterly.
          Grantees commonly report that they use program reports to track subgrantees’ progress
          toward meeting goals and objectives. They also reconcile program reports with the
          subgrantees’ fiscal reports and assess whether the subgrantee is performing at the level stated in
          their contract. Three mention using program reports to assess technical assistance needs, and
          one adds that they use them to gather information on barriers and accomplishments.

          In addition, grantees report that they require subgrantees to submit data on client characteristics
          and services rendered. Grantees then compile the data for the Annual




Grantee Monitoring of Subgrantees                      7                                  OEI-02-01-00641
          Administrative Report that they are required to submit to HRSA. Not all grantees report using
          the data to monitor subgrantees. Fifteen of 20 grantees use the data to help make funding
          decisions or to track clients and services. Grantees do not typically provide the data to their
          subgrantees to help them gauge their own performance.

          Fiscal reports. Not all grantees had fiscal reports for each of their subgrantees (see Figure 3).
          Eleven grantees did not have a fiscal report, invoices, or vouchers for between one and four of
          their subgrantees. In total, fiscal reports were missing for 20 of the 100 subgrantees. Fiscal
          reports most commonly included spreadsheets that matched expenditures with proposed
          budgets as well as invoices and vouchers. Without the subgrantee fiscal reports, the grantee
          cannot track whether expenditures are consistent with performance and correspond to the
          approved agreement.


                            Figure 3: Grantees that Did Not Have Fiscal Reports


                                                      Number of Subgrantees Missing Reports

                                                     Five     Four      Three      Two          One

            Number of grantees that did not
                                                      0         1          1         4            5
            have all fiscal reports (n=20)
          Source: OEI Documentation Review, 2002


          Even though grantees could not supply fiscal reports for each of their subgrantees, all 20 of the
          grantees report that they require their subgrantees to submit fiscal reports and/or invoices.
          Sixteen of the 20 grantees require subgrantees to submit fiscal reports along with the
          accompanying invoices. The remaining four grantees require subgrantees to submit either
          invoices or a fiscal report. Most grantees (16) require fiscal reports on a monthly basis or
          quarterly basis. They use these reports to track subgrantees’ fiscal performance by matching
          their expenditures to the proposed budgets that they submit at the start of the grant cycle.
          Grantees also use fiscal reports to monitor overspending and underspending, and whether funds
          are being distributed in a timely manner.

          Formal agreements. Not all grantees had a contract or formal agreement for each of their
          five subgrantees that we reviewed (see Figure 4). Seven grantees did not have a contract or
          agreement for between one and four of their subgrantees. In total, grantees did not have such
          documentation for 14 of the 100 subgrantees. Of the grantees with documentation, 80 of the
          100 subgrantees had a contract, contract renewal, or contract amendment, and 6 had a notice
          of award or memo of understanding. Without a contract or formal agreement, the grantee
          cannot ensure that the subgrantee is meeting program requirements.




Grantee Monitoring of Subgrantees                     8                                  OEI-02-01-00641
                Figure 4: Grantees that Did Not Have Contracts or Formal Agreements


                                                               Number of Subgrantees Missing
                                                                          Reports

                                                       Five       Four    Three       Two       One

              Number of grantees that did not
                                                           0        1        1         2          3
              have all contracts (n=20)
          Source: OEI Documentation Review, 2002


         Even though not all grantees had a contract or formal agreement for all five of their subgrantees,
         grantees commonly report that they use the contract to monitor subgrantees’ program and fiscal
         performance. They mention matching expenditures to proposed budgets included in the contract
         agreement. They also report using the contract to ensure that subgrantees are adhering to the
         required administrative caps, that subgrantees are serving only eligible clients, and that
         subgrantees are meeting the payer of last resort requirements.

         Site visits. In addition to three key documents necessary for subgrantee monitoring, we also
         determined whether grantees conducted site visits of subgrantees. We found that not all
         grantees had site visit reports for each of the five subgrantees that we reviewed (see Figure 5).
         Three of the 20 grantees did not have a site visit report documenting that they visited any of their
         5 subgrantees. Another 13 grantees could not document site visits for between 1 and 4 of their
         subgrantees. In total, grantees did not have site visit reports for 42 of the 100 subgrantees.
         Without a routine site visit and the accompanying documentation, the grantee cannot verify the
         program and fiscal information submitted by the subgrantee during the grant cycle.

         Further, our review of the site visit reports that grantees submitted shows that grantees conduct a
         wide range of activities on-site. Grantees may review subgrantees’ records, including financial
         statements and program objectives, conduct chart reviews and/or desk audits, meet with
         directors and program staff and/or clients, hold discussions with grantees about barriers and
         accomplishments, or assess technical assistance needs.


                           Figure 5: Grantees that Did Not Have Site Visit Reports


                                                               Number of Subgrantees Missing
                                                                          Reports

                                                       Five       Four    Three       Two       One

              Number of grantees that did not
                                                           3        3        1         3          6
              have all site visit reports (n=20)
         Source: OEI Documentation Review, 2002



Grantee Monitoring of Subgrantees                      9                                OEI-02-01-00641
          When questioned about site visits of subgrantees, 15 of the 20 selected grantees report that
          they conduct site visits at least annually. Several note that they aim to do this, but that it is
          difficult. As one grantee notes, they were only able to visit agencies with problems last year,
          not the “great job” agencies. Thirteen of the 20 grantees report that they review client records
          and fiscal records on-site to monitor subgrantees. Additionally, 17 grantees report that they
          conduct non-routine site visits of grantees. They use these visits to attend meetings, assess
          technical assistance needs, respond to grantees’ concerns, and follow up on any issues.

          Close Contact. We found that all 20 grantees believe that their monitoring of subgrantees is
          effective. They attribute their effectiveness to having strong relationships and close contact with
          their subgrantees. Ten grantees report meeting with subgrantees and/or consumers at least
          quarterly. One grantee noted that the community is relatively small, and subgrantees do not
          hesitate to call. Another two grantees commented that they are very involved and consult with
          their subgrantees on a daily basis.


Nevertheless, grantees are aware of some subgrantee problems

          Despite limited monitoring, grantees have identified some problems that their subgrantees are
          facing. Based on our review of the documents, the 20 selected grantees had evidence of issues
          for 78 of the 100 subgrantees. We are not able to determine whether grantees had evidence of
          all problems that subgrantees were facing, but we do know that when grantees were monitoring
          they were aware of and documented some issues.

          Specifically, grantees had corrective action plans that address specific issues for 19 of the 100
          selected subgrantees. Grantees had audits that included findings for 10 of the 100 subgrantees.
          Grantees had program, fiscal, and site visit reports that highlighted issues for other subgrantees.
          Examples of the issues that were identified include inadequate staffing, late submission of
          required documents, failure to maintain accounting records on a current basis, and failure to tag
          fixed assets with a unique identification number that allows them to be tracked by auditors.
          Issues that generated a corrective action plan included reallocation of funds following client
          complaints, missing signatures, and triple-billing for services.

          Despite identifying subgrantee issues, grantees emphasize that they do not have serious
          concerns with any of their current subgrantees. When asked about whether they have had any
          serious issues with any of their subgrantees, grantees note that only eight of all their current
          subgrantees have ever had a serious issue. Additionally, four grantees report ever having
          suspected any of their subgrantees of misuse. This misuse includes insufficient documentation,
          payment for inappropriate services, poorly tracking personnel time, and a double set of books.
          All four took action in response, and two resulted in funds being reimbursed.

          Grantees also appear to rarely have taken action against subgrantees that are not meeting
          program requirements. Our document review shows that 1 grantee terminated a subcontract
          with only 1 of the 100 selected subgrantees in FY 2000 for failing to submit required
          documentation. When asked if they had ever taken any enforcement actions




Grantee Monitoring of Subgrantees                     10                                OEI-02-01-00641
          against a grantee, five grantees report terminating subgrantee contracts for failing to meet
          contract goals. Three grantees report having drawn down the amount a subgrantee can expend
          each month as a means of corrective action. Six have withheld payment or disallowed payment
          as a means of ensuring compliance. Other actions that have been taken include terminating the
          executive director, increasing the frequency of site visits, and moving a subgrantee from unit-
          cost payment to reimbursement.


HRSA does not always require grantees to report how they monitor
subgrantees, and HRSA does not systematically monitor grantee
oversight of subgrantees

          HRSA allows Title I and Title II grantees to establish their own standards for how they monitor
          their subgrantees, provided they adhere to Federal requirements. Grantees are required to
          describe how they monitor their subgrantees in the Title-specific grant application. Grantees
          are also required to submit signed assurances as part of the application, and HRSA relies on
          these assurances to ensure grantees are adhering to application guidelines.

          However, HRSA does not require grantees to provide monitoring information in all instances.
          In FY 2002 Title I guidance, HRSA required grantees to describe their monitoring of
          subgrantees in order to apply for the supplemental portion of the grant only. In FY 2002 Title
          II guidance, HRSA required grantees to describe their fiscal and program monitoring only if
          the information has changed since their last submission.

          HRSA requires different information from Title I and Title II grantees on their monitoring of
          subgrantees. In the FY 2002 Title I application, HRSA asked grantees to describe the
          frequency of and protocols for site visits, reporting, and corrective actions for both the program
          and fiscal monitoring of their subgrantees. In the Title II application, HRSA asked grantees to
          describe the frequency of required fiscal reports and their contents, and the frequency of site
          visits. Grantees were also asked to provide information describing the process of initiating
          corrective actions and addressing audit findings. Regarding their program monitoring, the
          guidance asked grantees to “describe the State’s/territory’s requirements for reporting and
          monitoring rates of utilization of funds by contractor/subcontractors, including how the
          State/territory takes action if contractors or consortia are in noncompliance with programmatic
          and fiscal reporting.”

          Further, HRSA does not appear to use the information that Title I or Title II grantees provide in
          order to monitor grantees’ oversight of subgrantees. As detailed in the companion report,
          Monitoring of Ryan White CARE Act Title I and Title II Grantees, OEI-02-01-00640,
          project officers report that they do not typically focus on grantees’ monitoring of subgrantees.
          This is also confirmed by the grantees that we interviewed. Further, one HRSA official notes
          that they do not see monitoring grantees’ oversight of their subgrantees as part of HRSA’s
          responsibility, and that relying on the signed assurances from grantees is adequate.




Grantee Monitoring of Subgrantees                    11                                OEI-02-01-00641
                              RECOMMENDATIONS

          The findings are based on documents from 100 subgrantees from 20 grantees. These 20
          grantees receive 38 percent of all Title I funds and 41 percent of all Title II funds. The
          inconsistencies in monitoring that we found with the grantees reviewed suggest that Title I and
          Title II grantees’ monitoring of subgrantees needs to be strengthened. We are aware that since
          this inspection was conducted, HRSA has consolidated its grants management offices,
          relocated most Title II monitoring responsibilities from regional offices to headquarters, and
          redefined the Office of Field Operations as the Office of Performance Review. These changes
          may better position the agency to address the following recommendations. Specifically, we
          recommend that HRSA:

          •	        Set standards for grantees’ monitoring of subgrantees that, at a minimum, require a
                    contract or formal agreement, a program report, and a fiscal report, and some
                    consideration of regular site visits

          •	        Require grantees to report how they monitor their subgrantees in accordance with these
                    standards as part of every application

          •	        Increase efforts to monitor grantees’ oversight of subgrantees, including using
                    information grantees report to HRSA regarding subgrantee activities

Agency Comments

          We received comments on our draft report from HRSA. The full text of these comments can
          be found in Attachment D. HRSA concurs with all but one of our recommendations, and adds
          that significant administrative changes have occurred since this inspection was conducted.
          These changes may better position the agency to address the grantee monitoring activities
          discussed in this report.

          HRSA did not fully concur with the original OIG recommendation as it appeared in our draft
          report and required grantees to report how they monitor their subgrantees as a part of every
          annual application. In its comments to the Inspector General, HRSA reports that starting with
          the fiscal year 2004 grant guidance, they will require Title II grantees to submit a
          comprehensive application every other year instead of annually. As such, we have reworded
          this recommendation to reflect this new policy, and now OIG recommends that HRSA require
          grantees to report subgrantee monitoring information in every application.




Grantee Monitoring of Subgrantees                      12                                OEI-02-01-00641
                                                                             Appendix A

                          HRSA/HAB ORGANIZATIONAL STRUCTURE



                                                Administrator


         Bureau of                                         HIV/AIDS
                                    Bureau of                                  Maternal and Child
      Primary Health                                        Bureau
                                     Health                                     Health Bureau
          Care


                                                                      Division of Community Based
                  HRSA STAFF OFFICES                                            Programs


            Office of Communications
                                                                      Office of Policy and Program
            Office of Equal Opportunity and Civil Rights
                                                                              Development
            Office of Management and Program Support
            Office of Legislation
            Office of Planning and Evaluation                            Division of Service
            Office of Information Technology                                  Systems
            Office of Performance Review*
            Office of Minority Health
            Officer of Rural Health Policy                             Office for the Advancement
            Office of Special Programs                                         of Telehealth
            Office of Financial Policy and Oversight
            Office of International Health Affairs
                                                                       Office of Program Support
            *formerly Office of Field Operations

                                                                          Office of Science and
                                                                              Epidemiology


                                                                         Division of Training and
                                                                          Technical Assistance




Grantee Monitoring of Subgrantees                   13                             OEI-02-01-00641
                                                                                 Appendix B

                                    OIG Grants Oversight Framework

Requirements
       •	    What performance and financial requirements have the Operating Division developed
             for the grantee?
       •     Do grantees receive the performance and financial requirements?
       •     Do grantees fully understand the performance and financial requirements?

     Reports
        •           Are performance and financial reports received in a timely manner?
        •           Are performance and financial reports clearly presented and complete?
        •           Are audits completed in a timely fashion?
        •	          Is the Operating Division sharing reports, as appropriate, with the Department and
                    Office of Audit Services?

     Reviews
         •	         Has the Operating Division designated responsibilities for the grants management and
                    program officers?
           •        Are performance and financial reports reviewed in a timely fashion?
           •        Are there criteria for evaluating performance and financial reports?
           •        How is information in performance and financial reports verified?
           •        Are site visits conducted on schedule, with standard guidelines?
           •        What other contact/ communication is there between grantee and Operating Division?

     Enforcement
         •    What enforcement authority does the Operating Division have?
         •    Are there standards for addressing identified problems?
         •    What actions has the Operating Division taken to address problems with grantees?




Grantee Monitoring of Subgrantees                     14                               OEI-02-01-00641
                                                                                 Appendix C


                            Grantee Monitoring Documents Provided
                                   for Sampled Subgrantees

           X= Documents contained in the subgrantee file maintained by the grantee.

                  ID            Subgrantee   Program Report   Fiscal Report    Contract/     Site Visit Report
                                 Number                                       Agreement

             Grantee 1              1              X               X                                 X
                                    2              X               X              X
                                    3              X               X              X
                                    4              X               X              X                  X
                                    5              X               X              X                  X
             Grantee 2              1                              X
                                    2                              X                                 X
                                    3                              X                                 X
                                    4                              X                                 X
                                    5              X               X              X                  X
             Grantee 3              1              X                              X                  X
                                    2              X                              X                  X
                                    3              X               X              X                  X
                                    4              X               X              X                  X
                                    5              X               X              X
             Grantee 4              1              X               X              X                  X
                                    2              X               X              X                  X
                                    3              X               X              X                  X
                                    4              X               X              X                  X
                                    5              X               X              X                  X
             Grantee 5              1              X               X              X                  X
                                    2              X               X              X                  X
                                    3              X               X              X                  X
                                    4                              X              X                  X
                                    5              X               X              X                  X
             Grantee 6              1              X               X              X                  X
                                    2              X               X              X                  X
                                    3              X               X              X                  X
                                    4              X               X              X                  X
                                    5              X               X              X



Grantee Monitoring of Subgrantees                       15                             OEI-02-01-00641
                  ID            Subgrantee   Program Report   Fiscal Report    Contract/     Site Visit Report
                                 Number                                       Agreement

             Grantee 7              1              X               X              X
                                    2              X               X              X
                                    3              X               X              X
                                    4              X               X              X
                                    5              X               X              X
             Grantee 8              1              X               X              X
                                    2              X                              X
                                    3              X               X              X
                                    4              X               X              X
                                    5              X               X              X                  X
             Grantee 9              1              X                              X
                                    2              X               X              X
                                    3              X                              X
                                    4              X                              X
                                    5              X                              X
            Grantee 10              1              X               X              X                  X
                                    2              X               X              X                  X
                                    3              X               X              X
                                    4                              X              X                  X
                                    5              X               X              X                  X
            Grantee 11              1                              X              X
                                    2                              X              X                  X
                                    3                              X              X                  X
                                    4
                                    5
            Grantee 12              1              X               X              X
                                    2              X               X              X                  X
                                    3              X               X              X
                                    4              X               X              X
                                    5              X               X              X
            Grantee 13              1                                             X
                                    2                              X              X
                                    3                              X              X
                                    4              X               X              X
                                    5              X               X
            Grantee 14              1              X                              X
                                    2              X               X              X                  X
                                    3              X               X              X
                                    4              X                              X
                                    5              X                              X



Grantee Monitoring of Subgrantees                       16                             OEI-02-01-00641
                  ID            Subgrantee   Program Report   Fiscal Report    Contract/     Site Visit Report
                                 Number                                       Agreement

            Grantee 15              1              X               X              X                  X
                                    2              X               X              X                  X
                                    3                              X              X                  X
                                    4              X               X              X                  X
                                    5                                             X
            Grantee 16              1              X               X              X                  X
                                    2              X                              X                  X
                                    3              X               X              X                  X
                                    4              X               X              X                  X
                                    5              X               X              X                  X
            Grantee 17              1              X               X              X                  X
                                    2              X               X              X                  X
                                    3              X               X              X                  X
                                    4              X               X              X
                                    5              X               X              X
            Grantee 18              1                                             X                  X
                                    2                                                                X
                                    3              X               X              X                  X
                                    4              X               X              X                  X
                                    5              X               X                                 X
            Grantee 19              1              X               X              X                  X
                                    2              X               X                                 X
                                    3              X                              X
                                    4              X               X                                 X
                                    5              X                                                 X
            Grantee 20              1                                             X                  X
                                    2                              X              X
                                    3                              X                                 X
                                    4                              X              X                  X
                                    5                              X              X
         Subgrantees that had these
                                                  77               80            86                 58
         documents




Grantee Monitoring of Subgrantees                       17                             OEI-02-01-00641
                                                                            Appendix D

                                      Agency Comment

In this appendix, we present the full text of comments from the Health Resources and Services
Administration (HRSA).




Grantee Monitoring of Subgrantees                 18                              OEI-02-01-00641
Grantee Monitoring of Subgrantees   19   OEI-02-01-00641
Grantee Monitoring of Subgrantees
Grantee Monitoring of Subgrantees   21   OEI-02-01-00641
Grantee Monitoring of Subgrantees   22   OEI-02-01-00641
Grantee Monitoring of Subgrantees   23   OEI-02-01-00641
                             ACKNOWLEDGMENTS


This report was prepared under the direction of John I. Molnar, Regional Inspector General for
Evaluation and Inspections in New York, and Jodi D. Nudelman, Assistant Regional Inspector
General. Other principal Office of Evaluation and Inspections staff who contributed include:


                   Vincent Greiber, Project Leader        Alan Levine, Program Specialist




Grantee Monitoring of Subgrantees                    24                           OEI-02-01-00641
